No. 20-5360
IN THE

Supreme Court of the United States
______________________________

REINALDO DENNES,
Petitioner,
v.
BOBBY LUMPKIN, Director,
Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent.
______________________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
For the Fifth Circuit
______________________________
RESPONDENT’S BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI
________________________________
KEN PAXTON
Attorney General of Texas

EDWARD L. MARSHALL
Chief, Criminal Appeals Division

BRENT WEBSTER
First Assistant Attorney General

RACHEL L. PATTON*
Assistant Attorney General
*Counsel of Record

MARK PENLEY
Deputy Attorney General
For Criminal Justice

P.O. Box 12548, Capitol Station
Austin, Texas 78711
(512) 936-1400
rachel.patton@oag.texas.gov
This is a capital case.

i

QUESTIONS PRESENTED
Question One
Should this Court overrule Cullen v. Pinholster regarding Brady
claims, despite the fact the evidence allegedly suppressed by the State
was not material in this case?
Question Two
Should the Court answer Question One in this case despite the fact
there is no disagreement among the circuit courts of appeals about the
applicability of Cullen v. Pinholster to Brady clams?
Question Three
Should this Court choose this case to examine differences among
the circuits about the propriety of using the “knew or should have known”
analysis in evaluating Brady claims, despite the lack of materiality
concerning the allegedly suppressed material?

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED .....................................................................ii
TABLE OF CONTENTS ......................................................................... iii
TABLE OF AUTHORITIES ..................................................................... iv
BRIEF IN OPPOSITION TO PETITION FOR WRIT OF CERTIORARI .
................................................................................................................... 1
STATEMENT OF THE CASE .................................................................. 2
I. Facts of the Crime .......................................................................... 2
II. The State-Court and Federal Appellate Proceedings. ................... 8
REASONS FOR DENYING THE WRIT................................................. 10
ARGUMENT ........................................................................................... 11
I. The Fifth Circuit opinion. ............................................................ 11
II. This case would provide a poor vehicle to address any alleged
circuit split, because even when the new evidence is considered,
Dennes’s substantive Brady claim fails. ..................................... 15
III. Dennes’s new evidence is barred under Cullen v. Pinholster...... 17
IV. This Court’s decision in Banks v. Dretke does not rescue Dennes’s
claim on any front. ....................................................................... 18
V. Even when the new evidence is considered, Dennes’s Brady claim
fails on the materiality component of such a claim. ................... 23
VI. Any conflict in the courts of appeals is insufficient to warrant this
Court’s exercise of its discretionary authority. ........................... 25
CONCLUSION ........................................................................................ 27
iii

TABLE OF AUTHORITIES
Cases

Page

Amado v. Gonzalez, 758 F.3d 1119 (9th Cir. 2014) ......................... 26-27
Banks v. Dretke, 540 U.S. 668 (2004) ............................................ passim
Barton v. Warden, 786 F.3d 450 (6th Cir. 2015) .............................. 26-27
Brady v. Maryland, 373 U.S. 83 (1963) ........................................ passim
Canales v. Stephens, 765 F.3d 551 (5th Cir. 2014) ............................... 24
Cullen v. Pinholster, 563 U.S. 170 (2011) ..................................... passim
Dennis v. Secretary, Pennsylvania Department of Corrections, 834 F.3d
263 (3rd Cir. 2016) .................................................................. 26-27
Felder v. Johnson, 180 F.3d 206 (5th Cir. 1999) .................................. 24
Harrington v. Richter, 562 U.S. 86 (2011) ....................................... 10-11
Kyles v. Whitley, 514 U.S. 419 (2004) .................................................... 24
Lewis v. Connecticut Cm’r Correction, 790 F.3d 109 (2d Cir. 2015) 26-27
Rocha v. Thaler, 619 F.3d 387 (5th Cir. 2010) ...................................... 24
Strickler v. Greene, 527 U.S. 263 (1999) ............................................... 24
United States v. Amiel, 95 F.3d 135 (2d Cir. 1996) .............................. 24
United States v. Nelson, 979 F.Supp.2d 123 (D.C. Cir. 2013) .............. 26
United States v. Tavera 719 F.3d 705 (6th Cir. 2013) ..................... 26-27

iv

(Terry) Williams v. Taylor, 529 U.S. 362 (2000) ................................... 10
Yarborough v. Alvarado, 541 U.S. 652 (2004) ...................................... 11
Statutes
28 U.S.C. § 2254 ............................................................................ passim

v

BRIEF IN OPPOSITION
TO PETITION FOR WRIT OF CERTIORARI
Petitioner Reinaldo Dennes was convicted and sentenced to death
for the capital murder of Janos Szucs. During the course of a robbery,
Dennes shot and killed Szucs, in addition to shooting a security guard in
gaining access to Szucs office.
Dennes now petitions this Court for a writ of certiorari from the
Fifth Circuit’s affirmance of the district court’s decision to dismiss his
application for writ of habeas corpus. Upon denial of his writ in the
district court, Dennes sought a certificate of appealability from the Fifth
Circuit. The Fifth Circuit granted a certificate of appealability as to three
claims: 1. the State suppressed evidence that Balderas was a “long-time
informant” for law enforcement in Harris County, Texas; 2. the State
suppressed evidence or denied due process by not timely revealing
information about an extraneous offense proved by the State during
punishment; and 3. Whether Dennes

satisfied the cause/prejudice

standards for not having raised these issues in the state court. The Fifth
Circuit examined these issues and affirmed the judgment of the district
court.
Dennes is now unable to present any special or important reason to
1

grant certiorari review of the Fifth Circuit’s decision. The appellate court,
after appropriately analyzing the facts of the case in conjunction with the
caselaw, reasonably concluded that the district court’s rulings should be
affirmed. Dennes offers no compelling reason to grant certiorari review,
and such review should therefore be denied.
STATEMENT OF THE CASE
I.

Facts of the Crime
The Texas Court of Criminal Appeals (CCA) summarized the

factual background of this case as follows.
In December of 1995, Antonio Ramirez came from Ecuador
to work in Texas. Shortly after his arrival, Ramirez met a
man named Francisco Rojas who sold jewelry for [Dennes].
Sometime later, Ramirez gave several rings to Rojas that
he wanted to sell. Rojas then took Ramirez and the rings
to [Dennes] at [Dennes]’s office in the Greenrich Building
on Richmond Avenue. During this visit, Ramirez noticed a
lathe in [Dennes]’s jewelry workshop and began to play
with it. [Dennes] asked Ramirez if he knew how to operate
the machine and Ramirez said that he did. [Dennes] then
“hired” Ramirez to make watch bezels for him.
Shortly thereafter [Dennes] invited Ramirez to travel to
Mexico with him to buy a diamond. After the diamond
purchase, the pair returned to Texas and [Dennes] gave
Ramirez more work. In early January, 1996, [Dennes]
made a sketch for Ramirez and asked him if he could make
the object depicted. By the time he completed the job,
Ramirez had manufactured what turned out to be a
silencer for [Dennes]. After the silencer was completed,
[Dennes], his brother Alberto, and Ramirez went to a field
2

a few minutes away to test it. Thinking the silencer did not
work as it should, [Dennes] modified his design and had
Ramirez make another one. [Dennes] test fired this model
in his office.
Shortly after the completion of the second silencer,
[Dennes] asked Ramirez to help him and Alberto rob a
jewelry dealer who also had an office in the Greenrich
Building. [Dennes] explained that he would take the
videotape from the security station while Ramirez secured
the diamonds and Alberto shot the dealer. Ramirez
consented, but returned to South America two days later.
Estrella Martinez, [Dennes]’s lover, had a cleaning job at the
Greenrich Building. In January of 1996, [Dennes] told
Martinez he wanted her to let him in a side door of the
building after working hours. He told her he was going to take
some videotapes from the security guard’s station on the first
floor. On January 22, 1996, [Dennes] gave Martinez a cellular
phone with which he planned to call her to tell her when to let
him and Alberto into the building. [Dennes] also wanted
Martinez to distract the guard so he could take the tapes.
Janos Szucs was a reputable wholesale diamond dealer who
had an office in the Greenrich Building. Shortly before his
death, Szucs had a diamond inventory worth more than
$3,600,000 which he kept in his office safe. He also had
approximately $200,000 in cash that he planned to use to
purchase diamonds on an upcoming trip. Szucs did not have a
receptionist or secretary; access to his office was controlled
through an electronically-locked door. Szucs had a television
monitor in his office so he could see who was at the door and
he would allow people in by pushing a remote button located
on his desk. In early January 1996, Szucs and Sam Solomay
formed a partnership and Solomay moved into Szucs’s office
suite.
On January 24th, Solomay left the office at 5:40 p.m., but
Szucs remained, explaining that he had an appointment that
3

evening. David Copeland was the security guard on duty at
the Greenrich Building that evening, working the 3:00 p.m. to
11:00 p.m. shift. A videotape recorder at the security desk
recorded the images from the security cameras around the
building. When Copeland arrived for his shift, a technician
was there working on the surveillance system.
Around 6:30 p.m. that same evening, [Dennes] called
Martinez on the cellular phone he had provided her and told
her to open the loading dock door. [Dennes] and Alberto
entered and immediately turned into a stairwell, thereby
avoiding the security guard’s desk. Shortly after 7:00 p.m.,
[Dennes] called Martinez and told her to distract the security
guard. Martinez told Copeland that she had locked her keys
in a fifth floor office and asked him to help her retrieve them.
A little after 7:30 p.m., [Dennes] again called Martinez and
told her that he needed another distraction. The security
guard kept the key to the snack bar so Martinez approached
Copeland and told him that she needed to clean the area and
asked if he would let her in. Shortly after Martinez began
cleaning, however, the owner of the snack bar arrived and told
her to come back later.
When Copeland returned to the lobby, he found a man
kneeling behind the security desk apparently working on the
security system. Copeland assumed this was related to the
earlier repairs. As Copeland approached, the man scrambled
to his feet and walked briskly toward the loading dock door.
As Copeland neared the security desk, the man turned and
headed back toward the guard. When he reached Copeland,
the man placed his left hand on Copeland’s shoulder, stuck a
9 mm gun with a silencer to Copeland’s chest with his other
hand and fired. The man shot the guard again after he had
fallen. As Copeland lay there playing dead, he heard the man
walk to the security desk. He then heard equipment and wires
being moved around followed by footsteps running toward the
loading dock door. The owner of the snack bar called “911.”
4

Houston Police Officer Paul Terry arrived on the scene to find
Copeland lying face down in the lobby. Copeland told Terry
what had happened and the officer unsuccessfully searched
for a suspect. Inside the lobby, Terry found spent shell casings
and fragments of a fired bullet. He also noticed that the video
equipment was missing.
That same evening, Szucs’s wife, Nicole, became concerned
that her husband had not arrived home. After several failed
attempts to reach her husband, she received a call from a
friend who worked in the Greenrich Building who told her
that the building guard had been shot. Nicole asked the friend
to contact the building’s office manager. Sometime after 11:00
p.m., the building manager approached one of the officers
remaining at the scene. Officer M.R. Furstenfeld and a couple
of other officers then accompanied the manager to Szucs’s
suite to check on his welfare. Upon gaining access to the office,
Furstenfeld found Szucs’s dead body. Detectives who arrived
at the scene noted no signs of a forced entry. They also noticed
that the safe was empty and there were no signs of the $3.6
million dollar diamond inventory Szucs maintained or the
$200,000 he was supposed to have on hand in cash. Plus,
Szucs was not wearing the five-carat diamond pinky ring he
always wore nor was the ring ever recovered. The detectives
also discovered that Szucs’s
computer had
been
damaged as if someone had tried to remove a disc with
tweezers.
The police eventually focused their investigation upon
[Dennes]. A search of his office revealed a lathe that had been
broken down and boxed up, a fired 9 mm bullet, and an
owner’s manual for a 9 mm Taurus handgun. Firearms
examiner Robert Baldwin determined that the bullets
recovered from Szucs’s body, the bullet found in [Dennes]’s
office, and the bullets found in the lobby of the Greenrich
Building were all fired from the same gun. Moreover, the
cartridge casings found in the lobby of the Greenrich Building
and those found in the field where [Dennes] tested the silencer
5

were fired from the same gun. The weapon was determined to
be either a Taurus or a Beretta 9 mm handgun.
Dennes v. State, slip op. at 2–7 (Tex. Crim. App. Jan. 5, 2000).
In addition to the heinous nature of this crime, the jury heard
evidence at the punishment phase of trial concerning another armed
robbery organized by Dennes the year before. In October 1995, Dennes
approached an acquaintance of his, David Balderas, about committing a
robbery. Dennes told Balderas that he knew someone who had a lot of
jewelry in his house and that Balderas just had to tie the man up and
take his briefcase. Dennes told Balderas that he could do the job himself
or find someone else to do it for him. Balderas decided he did not want to
go into the house, so he found two other people, Hector Fugon and
Francisco Elvira, to do the job.
In early November, Dennes gave Balderas the address, then drove
Balderas into the neighborhood and showed him the house. Dennes told
Balderas that the house belonged to a man who flew around the country
with a lot of jewelry, but that he never knew when the man would be
home because of his frequent travel. When he found the man at home,
Dennes would call Balderas, who in turn would contact Fugon and Elvira.

6

Balderas later received a call from Dennes saying that the man was
home, and he relayed the message to Fugon and Elvira.
However, Fugon and Elvira arrived at the home of Danny Tsang.
Fugon and Elvira tapped on Tsang’s back window and demanded that
Tsang open the back door. When he complied, Fugon and Elvira pushed
Tsang to the floor, pointed guns at his head, tied him up with the cord
from an iron, and demanded to know where the diamonds were kept.
Tsang told them that he had no diamonds, but that he knew his neighbor
two doors down, Albert Ohayon, was in the jewelry business and that
they probably had the wrong house.
Fugon and Elvira did not leave; instead, they made Tsang wake his
wife and daughter and ransacked the house for two and a half hours
searching for diamonds. They ultimately took some jewelry, a watch, a
camera, some clothing, a gun, and a stereo system, and then fled in
Tsang’s car. Fugon and Elvira paged Balderas after they finished the
robbery and advised him that it was the wrong house. When Balderas
passed this information on to Dennes, Dennes accused him of lying and
said that he would find out the truth in the morning.

7

The next morning, the Ohayons were awakened by a police officer
checking on their welfare because the Tsangs had just been robbed.
Albert Ohayon, who was in the diamond wholesale business, had just
returned from the airport the prior evening with approximately $500,000
worth of diamonds in his briefcase. Ohayon knew Dennes because they
both once worked for the same company, albeit at different times.
II.

The State-Court and Federal Appellate Proceedings.
On September 4, 1997, Dennes was convicted of capital murder and

sentenced to death for the murder of Janos Szucs during the commission
of a robbery. At a motion for new trial hearing, Dennes’s counsel argued
that Harris County, Texas prosecutors had withheld information about a
punishment phase witness’s status as a law enforcement informant.
During the course of that hearing, Dennes’s counsel described witness
Balderas as an “ongoing” informant and proffered the testimony of
Balderas’s attorney to provide evidence of that fact. Dennes’s motion for
new trial was denied. On direct appeal in the state court, in two separate
claims, Dennes argued that the State suppressed evidence of a contract
between Dennes and the Houston Police Department and evidence that
Dennes had criminal charges dismissed by the Harris County District
8

Attorney’s Office. Dennes filed an application for writ of habeas corpus
with the CCA which was denied in 2013. During the pendency of Dennes’s
state postconviction proceedings, witness Balderas was convicted in
federal court. Balderas’s attorney, who was the one present as Dennes’s
witness in the motion for new trial hearing, argued for Balderas by telling
the court about Balderas’s work as a law enforcement informant from
1989 to the time of the hearing in 1999.
Dennes then sought federal habeas relief on thirty-three grounds
in the Southern District of Texas. Dennes combined his two direct appeal
claims under Brady v. Maryland 1 into one, to which he added additional
factual allegations in support. The district court denied habeas relief on
all grounds and denied a COA, finding that “each of Dennes’s claims” was
“foreclosed by clear, binding precedent.” Dennes v. Davis, 2017 WL
1102697, at *17 (S.D. Tex. Mar. 22, 2017). Dennes then appealed the
Brady issues and related cause and prejudice standard for overcoming
the procedural bar to the Fifth Circuit Court of Appeals. The Fifth Circuit
affirmed the district court’s denial of Dennes’s claims. Dennes now
petitions this Court for a writ of certiorari.

1

373 U.S. 83 (1963).
9

REASONS FOR DENYING THE WRIT
Dennes presents no compelling reason for granting review on writ
of certiorari, and none exists. See Sup. Ct. R. 10 (Certiorari review “is not
a matter of right but of judicial discretion,” and “will be granted only for
compelling reasons.”) Indeed, the issues in this case involve only the
lower court’s proper application of this Court’s precedent. Furthermore,
a favorable ruling for Dennes on the issues as presented would have no
effect on Dennes’s judgment and sentence. Accordingly, the petition
presents no important question of federal law to justify the exercise of
this Court’s certiorari jurisdiction.
Under 28 U.S.C. § 2254(d), a federal court may not issue a writ of
habeas corpus for a defendant convicted under a state judgment unless
the adjudication of the relevant constitutional claim by the state court,
(1) “‘was contrary to’ federal law then clearly established in the holdings
of” the Supreme Court; or (2) “‘involved an unreasonable application of’”
clearly established Supreme Court precedent; or (3) “‘was based on an
unreasonable determination of the facts’ in light of the record before the
state court.” Harrington v. Richter, 562 U.S. 86, 100 (2011) (quoting
(Terry) Williams v. Taylor, 529 U.S. 362, 412 (2000)).
10

Section 2254(d) reflects the view that habeas corpus is a guard
against extreme malfunctions in state criminal justice systems, not a
substitute for ordinary error correction through appeal.
“A state court’s determination that a claim lacks merit precludes
federal habeas relief so long as ‘fairminded jurists could disagree’” on the
correctness of the state court’s decision. Harrington, 562 U.S. at 87
(quoting Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)). Further, in
reviewing a state court’s merits adjudication for reasonableness, a
federal court is limited to the record that was before the state court. §
2254(d)(2); Cullen v. Pinholster, 563 U.S. 170, 181 (2011).
ARGUMENT
I.

The Fifth Circuit opinion.
The Fifth Circuit found that the district court did not err in denying

Dennes’s Brady claim. Pet. App. 2 A at 1.
Dennes’s briefing in the federal district court on the Brady claim
indicated that it was an exhausted claim but included references to
evidence not presented to the state courts—the transcript of a 1999

“Pet.” refers to Dennes’s Petition for Writ of Certiorari. Pet. App.” Refers to
the appendices to that petition.
2

11

sentencing hearing that indicated that Balderas was a long-term
informant for the Houston Police Department. As noted by the Fifth
Circuit in its opinion, on appeal Dennes focused on the allegation that
the State suppressed evidence of Balderas’s ongoing informant
relationship with the State. Pet. App. A at 8.
The Fifth Circuit analyzed the long-term informant allegation both
as new evidence supporting the exhausted claim and, alternatively, a
standalone Brady claim and noted that Dennes faced insurmountable
procedural hurdles under both theories. 3 Pet. App. A at 11-12. As a
standalone Brady claim, the allegations would be unexhausted and
therefore procedurally barred in federal court. Id. However, if Dennes
presented the evidence to support his pre-existing Brady claim, the
federal courts are not permitted to consider it under Cullen v. Pinholster.4
Id.

Dennes has always maintained that his Brady claim was exhausted, except
during oral argument in the Fifth Circuit on his COA application. During argument,
Dennes’s attorney argued that Cullen v. Pinholster did not apply to his Brady claim
because it had not been adjudicated on the merits in state court. However, Dennes’s
briefing after the grant of COA returned to the familiar argument that the Brady
claim had been exhausted and his new evidence merely supported that claim.
“Dennes thus satisfied the exhaustion requirement as to the legal ground of his
Balderas Brady claim.” Dennes Supplemental Brief to the Fifth Circuit at 14.
3

4

563 U.S. 170 (2011).
12

Despite the fact that Dennes had always argued that his new
evidence was presented in support of an exhausted Brady claim and that
Cullen v. Pinholster barred consideration of such new evidence not
considered in state court, the Fifth Circuit nonetheless evaluated the
claim including Dennes’s new evidence. In doing so the Fifth Circuit
properly acknowledged this Court’s precedent and standards set forth in
Banks v. Dretke, but ultimately concluded that, even considering the new
evidence,

Dennes

failed

to

meet

the

cause/suppression

and

prejudice/materiality elements necessary to prevail on Dennes’s Brady
claim.
On the subject of cause/suppression, the Fifth Circuit found
Cause, in this context, means that the State prevented
Dennes from gaining access to the relevant Brady information.
Dennes claims he was not aware of Balderas’s alleged
longstanding status as an informant for Harris County because the
State withheld the information. But evidence is not suppressed
under Brady if the defendant knew or should have known of
Balderas’s status. Here, there is ample evidence to suggest that, at
minimum, Dennes should have known about Balderas’s status.
At the motion for new trial hearing, Dennes’s counsel argued
that Balderas “had a working relationship and we believe the
documents speak of an ongoing working relationship with the
State of Texas out of which he received a dismissal of a major drug
case . . . that relationship with the State and his desire to work
with the state in order to secure dismissal of the case . . . should
have been disclosed under Brady.” During the course of these
proceedings, the State also turned over Balderas’s informant
contract to the trial court and acknowledged his informant
13

relationship with the State. And, as if this evidence were not
enough, Dennes’s counsel proffered the testimony of Balderas’s
attorney, John Munier, who was present at the motion for new trial
hearing and was willing to testify about Balderas’s informant
relationship with the State. Taken together, these points establish
that Dennes had, if not actual knowledge, sufficient opportunity to
learn of Balderas’s status by the conclusion of the motion for new
trial hearing.

Pet. App. A at 12–13.
Turning to prejudice, the Fifth Circuit aptly concluded that, even
considering the newly presented evidence, Dennes failed to demonstrate
that the allegedly suppressed evidence was material. Pet. App. A. at 1315. Balderas had been impeached at trial to such an extent that the Fifth
Circuit found that there was not a reasonable probability that had the
complained of evidence been turned over to the defense, the result of the
proceeding would have been different. Pet. App. A at 14. This was
because “[a]t the time of Dennes’s trial, Balderas had not received an
official offer of immunity in exchange for his testimony, and Dennes’s
counsel drew significant attention to this fact.” Id. Evidence of Balderas’s
long-time informant status would have been, at best, cumulative proof of
his “glaringly obvious” bias. Pet. App. A at 14-15. But cumulative
impeachment is not material. Id. Additionally, the new evidence was not
completely favorable to Dennes. Pet. App. A at 14. Rather, the sentencing
14

hearing transcript affirmed the fact that Balderas received nothing in
return for his testimony at Dennes’s trial. Id.
Finally, the Fifth Circuit found that “circumstantial evidence
strongly corroborates Balderas’s testimony.” Pet. App. A at 15. This
evidence was such that it is “unlikely that a jury would have found
Balderas to be any less credible based on his alleged informant status on
unrelated matters.” Pet. App. A at 15—16.
II.

This case would provide a poor vehicle to address any
alleged circuit split, because even when the new evidence is
considered, Dennes’s substantive Brady claim fails.
Certiorari review is not warranted here as any alleged circuit split on

the proper application of Cullen v. Pinholster to Brady claims is not properly
implicated. Due to the individual facts of this case and the lower courts’
analysis of the issue, this case would be a bad vehicle for addressing any
circuit differences.
Dennes clearly states that at issue is the application of Cullen v.
Pinholster to “Brady evidence that remains suppressed until federal
habeas proceedings,” and a circuit split Dennes claims exists as to that
question. Cert. Op. at ii, 13. Dennes’s next question assumes the Court
decides in his favor on the first two issues, and from there questions
15

whether what defense counsel knew or should have known remains
relevant in light of this Court’s decision in Banks v. Dretke.
However, no decision on any of these issues will have any impact
on the Fifth Circuit’s ultimate ruling. Notably absent from the issues
Dennes presents in his petition to this Court is any complaint about the
Fifth Circuit’s decision on the prejudice/materiality prong of Dennes’s
claim. This is for good reason. Even if Dennes’s claim on cause were
meritorious, the facts supporting his claim fall lamentably short of that
necessary to demonstrate prejudice/materiality.
Despite Pinholster’s prohibition on the introduction of new evidence
on federal habeas, the Fifth Circuit nonetheless gave full consideration
to the evidence of Balderas’s long-standing informant status in
evaluating prejudice/materiality. The court concluded that the evidence
was cumulative to that presented at trial and that there was significant
corroborating evidence to support Balderas’s testimony. The Fifth Circuit
noted, “Balderas’s conflict of interest had already been made glaringly
obvious to the jury.” Pet. App. A at 14. That finding has not been
presented to this Court for review. Because the Fifth Circuit evaluated
all aspects of Dennes’s claim, including the new evidence, neither the
16

cause/suppression issue or any Pinholster argument were uniquely
dispositive of the claim—Dennes’s failure to prove materiality was fatal
in itself.
III. Dennes’s new evidence is barred under Cullen v. Pinholster.
Dennes has always pled his Brady claim as a single exhausted
claim and has conceded the claim is exhausted multiple times. As such,
Dennes’s claim is subject to § 2254(d) analysis and any new evidence
Dennes attempts to present in federal court will be barred under this
Court’s precedent in Pinholster which noted that “Section 2254(d)
applies” to a claim that “was adjudicated on the merits in state court
proceedings[,]” and held that “review under § 2254(d)(1) is limited to the
record that was before the state court that adjudicated the claim on the
merits.” Pinholster, 563 U.S. at 181, 187. Under clearly settled Supreme
Court law, Dennes’s newly presented evidence cannot be considered
when evaluating the reasonableness of the CCA’s denial of his exhausted
claim, and the Fifth Circuit did not err in so finding.
Therefore, Dennes asks this Court to carve out an exception to
Pinholster based upon a dissenting opinion in that case. However, such
an exception is not warranted in Dennes’s case, if at all. Justice
17

Sotomayor’s dissent begins with the observation that some petitioners
are unable to develop the factual basis of their claims in state court
through no fault of their own. Pinholster, 563 U.S. at 206. However, as
will be demonstrated below, Dennes’s failure to develop the evidence in
this case was undoubtedly due in part to Dennes’s own inaction—he
failed to investigate his Brady claim in state court in light of the
information available at the time. Dennes had information about
Balderas’s “ongoing working relationship” with law enforcement, including an
informant contract, and access to Balderas’s attorney who was present and
ready to testify about his knowledge of Balderas’s informant status.

Therefore, even if this Court were to create a Brady claim exception to
Pinholster similar to the standard for holding an evidentiary hearing
contained within § 2254(e)(2), Dennes would be unable to meet that
standard.
IV.

This Court’s decision in Banks v. Dretke does not rescue
Dennes’s claim on any front.
Dennes attempts to escape the deference owed under AEDPA by

urging that he can show cause and prejudice under Banks v. Dretke. 540
U.S. 668 (2004). But Dennes has conceded that his Brady claim is
exhausted on multiple occasions. He therefore argues that he has shown
18

cause and prejudice for his failure to present the additional evidence
supporting his claim in state court.” However, while, Banks did apply the
“cause and prejudice” analysis to Banks’s exhausted claim when
considering evidence he did not present in state court, Banks was decided
before Pinholster. Furthermore, Bank’s Brady claim was raised preAEDPA, so § 2254(d) was not an issue.
Nonetheless, even without the Pinholster problem, Dennes’s total
reliance on Banks falls flat. Banks is clearly distinguishable from
Dennes’s case on a number of points. First, the witness was actually an
informant that received payment because of his cooperation with law
enforcement in Banks’s case. Second, the prosecution allowed the
witness’s clearly perjured testimony, specifically on the relevant points,
to stand uncorrected at trial. And third, the prosecution specifically and
categorically denied the informant status of the witness in postconviction proceedings. As this Court’s opinion noted that the cause and
prejudice analysis mirrored the suppression and materiality analysis in
Banks’s case, the factual differences between Banks and Dennes are
important. 540 U.S. at 691.

19

In Dennes’s case, there was never any doubt that Balderas was an
informant for law enforcement. The only question has ever been the
specific extent of his work as an informant. This is in stark contrast to
the petitioner in Banks who alleged that the witness was an informant
in postconviction proceedings only to have that fact denied by the State.
On the other hand, Dennes knew during trial that Balderas was a police
informant. Balderas was cross-examined extensively on the fact that he
was hoping for favorable treatment in exchange for his testimony at
Dennes’s trial. Further, Dennes knew at the motion for new trial that his
informant status included a contract with law enforcement and was
“ongoing.”
Additionally, the perjured testimony in Banks was clear and
unarguable while Dennes’s allegations are, as the Fifth Circuit held,
“extreme” and “simply do not square with the record.” Pet. App. A at 16.
Further, as the Fifth Circuit indicated, there is some question
whether Dennes’s state counsel was unaware of the long-term informant
status. Dennes maintains that he first learned of Balderas’s status from
the transcript of Balderas’s 1999 sentencing hearing. However, at the
motion for new trial hearing, Dennes’s counsel speaks about Balderas’s
20

“ongoing working relationship with the State of Texas.” The distinction
between

an

“ongoing”

working

relationship and

a “long-term”

relationship , if it exists, is very slim indeed.
At that same hearing, Dennes’s counsel proffers the testimony of
the very man whose statements at the sentencing hearing Dennes
claims to have discovered “by luck” on federal habeas. It defies
credulity to suggest that, under these circumstances, Dennes was
unaware of the long-term status until federal habeas. This is
particularly true when the only indication of it is the unsupported
allegation itself. As the Director noted in the Fifth Circuit, Dennes has
never provided any affidavit from appellate counsel as to what they
did or did not know at the time of the direct appeal.
If Dennes knew about the long-term status—and there is no
independent evidence he did not—then Dennes’s failure to present
that evidence in state court could not reasonably be attributed to any
action or inaction by the State. This simple fact establishes why the
application of the “knew or should have known” principle does not “fly
in the face” of this Court’s decision in Banks. Rather, to suggest the
contrary would fly in the face of common sense. If Dennes did not know
21

about the Balderas’s status as a long-term informant, the reason for
that would be because he failed to ask his own witness. 5
As such, the Fifth Circuit’s application of Banks to the facts in
Dennes’s case is routine and does not warrant review by this Court.
Dennes essentially claims that Banks created a per se rule that a
petitioner may always present new evidence on a Brady claim.
Presumably, a petitioner could always satisfy the cause requirement if
he had made a Brady request and obtained a prosecutor’s statement that
they would comply. In this world, petitioner’s attorneys can then sit on
their hands and do nothing further to develop even an existing Brady
claim—regardless of petitioner or his attorney’s actual or constructive
knowledge of the information—and later claim that the State’s failure to
turn over that information constitutes cause to excuse a procedural bar.
The fact that the evidence was displayed on a billboard on counsel’s route
from the office to the courthouse would be of no moment if the information

Indeed, one would question how Dennes’s attorneys were able to elicit the
information about Balderas’s “ongoing” status without necessarily inquiring into the
length of that status or more inexplicably, whether that status was in effect at the
time of Balderas’s testimony at Dennes’s trial. Further, it would certainly be strange
for Dennes’s attorney not to investigate further, by asking the witness with the
information present at the time, about the extent and length of Balderas’s
cooperation with law enforcement after the judge indicated that he may have ruled
differently if Dennes had shown an ongoing relationship.

5

22

was not conveyed by the prosecutors. This absurd result demonstrates
that Dennes’s claim about the current state of the law is an inaccurate
interpretation of this Court’s precedent.
Dennes counsel were not only aware of evidence suggesting a Brady
claim directly relating to the informant status of Balderas, but raised this
claim as early as the motion for new trial. Expecting a petitioner to fully
investigate potential additional facts to the specific Brady claim they are
already raising is a far cry from the hide and seek, trail of crumbs practice
this Court prohibited in Banks. The trail from what Dennes’s attorney
described at the new trial hearing as Balderas’s ongoing informant status
to his current categorization of Balderas as a long-term informant is very
short indeed. In this case, Dennes stood in front of the billboard with his
eyes obstinately shut and now attempts to claim it was an outside force
that prevented him from seeing the billboard’s advertisement.
V.

Even when the new evidence is considered, Dennes’s Brady
claim fails on the materiality component of such a claim.
The Fifth Circuit not only found that Dennes failed to prove

cause/suppression, rather the court spent significantly more time
explaining why Dennes’s Brady claim failed on the prejudice/materiality
prong.
23

The court accurately cited to this Court’s relevant precedent, noting
that “[u]nless suppressed evidence is ‘material for Brady purposes [its]
suppression [does] not give rise to sufficient prejudice to overcome [a]
procedural default.’” Banks, 540 U.S. at 698 (quoting Strickler v. Greene,
527 U.S. 263, 282 (1999)). Materiality is met when “favorable evidence
could reasonably be taken to put the whole case in such a different light
as to undermine confidence in the verdict.” Kyles v. Whitley, 514 U.S. 419,
435 (2004).
However, “[u]ndisclosed evidence that is merely cumulative of other
evidence is not material.” Rocha v. Thaler, 619 F.3d 387, 396 (5th Cir.
2010); Canales v. Stephens, 765 F.3d 551, 575–76 (5th Cir. 2014); see also
Felder v. Johnson, 180 F.3d 206, 213 (5th Cir. 1999) (citing United States
v. Amiel, 95 F.3d 135, 145 (2d Cir. 1996) (“Suppressed evidence is not
material when it merely furnishes an additional basis on which to
impeach a witness whose credibility has already been shown to be
questionable.”)).
Balderas was thoroughly impeached at trial with his bias to testify
for the state. Balderas confessed to helping commit the Tsang home
invasion at the behest of Dennes. Balderas testified that he hoped he
24

would not be charged with the offense and affirmed the statement that
based upon his testimony he might get off on the charges. Given that
Balderas had already been impeached by the fact that he was hoping to
avoid being charged with an offense, further evidence that he worked as
an informant in unrelated cases to receive similar benefits would have
merely been cumulative.
Moreover, the capital offense Dennes committed circumstantially
corroborated Balderas’s testimony. The two offenses happened close in
time and both were carefully planned and elaborate robberies of diamond
wholesalers, who were both connected to the company Dennes had
previously worked for. Finally, the aggravating nature of the underlying
capital offense itself dispels any reasonable likelihood of a different
outcome even if the jury discounted Balderas’s testimony. For these
reasons, Dennes fails to show materiality under Brady and prejudice
under Banks.
VI.

Any conflict in the courts of appeals is insufficient to
warrant this Court’s exercise of its discretionary authority.
There are two main issues presented by Dennes’s petition: the

viability of applying Pinholster to Brady evidence first presented in
federal court and the propriety of questioning whether defense counsel
25

knew or should have known about the purportedly withheld evidence in
a cause/suppression analysis on an unexhausted claim. Therefore, the
existence, or non-existence, of a circuit split on both is relevant to
whether this Court should use its discretionary authority to review this
case. However, Dennes combines his discussion of the federal appeals
courts’ jurisprudence on these issues into one in an attempt to create a
circuit split that does not exist as Dennes claims.
As to the question relating to Pinholster, Dennes presents no case
law that states that Pinholster does not apply to the 2254(d)(1)
adjudication of an exhausted Brady claim.6 The federal courts of appeals
decisions he cites in support of his position were either decided prior to
Pinholster, or do not contain a Pinholster issue.7

Similarly, the undersigned has found no federal circuit court case that stands
for the proposition that Pinholster is inapplicable to Brady claims.

6

In Amado v. Gonzalez, 758 F.3d 1119 (9th Cir. 2014), Dennis v. Secretary,
Pennsylvania Department of Corrections, 834 F.3d 263 (3rd Cir. 2016), and Lewis v.
Connecticut Cm’r Correction, 790 F.3d 109 (2d Cir. 2015), the Brady evidence was not
new in federal court—it had been presented in state court. Both petitioners in United
States v. Tavera 719 F.3d 705 (6th Cir. 2013) and United States v. Nelson, 979
F.Supp.2d 123 (D.C. Cir. 2013), were convicted in federal court and therefore
Pinholster was inapplicable. In Barton v. Warden, 786 F.3d 450 (6th Cir. 2015),
Pinholster was not implicated because there was no merits adjudication as the state
court decided the issue on procedural grounds.
7

26

As to the Banks issue, of the federal courts of appeals cases Dennes
cites to in support of his argument, only six were decided after Banks. 8
A review of the cases does indicate different handling of the issue at
times.9 However, the Fifth Circuit certainly does not stand alone in its
interpretation. More importantly to Dennes’s case, as noted previously, a
resolution in his favor on this matter will not benefit him in any way.
CONCLUSION
For all the reasons discussed above, the Court should deny Dennes’s
petition for a writ of certiorari.
Respectfully submitted,
KEN PAXTON
Attorney General of Texas
BRENT WEBSTER
First Assistant Attorney General
Amado v. Gonzalez, 758 F.3d 1119 (9th Cir. 2014), Dennis v. Secretary,
Pennsylvania Department of Corrections, 834 F.3d 263 (3rd Cir. 2016); United States
v. Tavera, 719 F.3d 705 (6th Cir. 2013); Barton v. Warden, 786 F.3d 450 (6th Cir.
2015); Lewis v. Connecticut Cm’r Correction, 790 F.3d 109 (2d Cir. 2015).

8

It is notable, however, that while Amado ultimately holds that diligence was
not a factor in that case, the Ninth Circuit distinguished, rather than overruled, their
previous cases discussing a petitioner’s obligations in developing Brady claims. The
court stated that while he is not obligated to conduct interviews or investigations
himself, “[d]efense counsel cannot ignore that which is given to him or of which he is
otherwise aware.” Amado, 758 F.3d at 1137. Further, the court reiterated that “when
defense counsel was put on notice as to potential Brady material and given the
opportunity to seek it out,” a defendant could not later claim a Brady violation. Id.
9

27

MARK PENLEY
Deputy Attorney General
for Criminal Justice
EDWARD L. MARSHALL
Chief, Criminal Appeals Division

RACHEL L. PATTON
Lead Counsel
Assistant Attorney General
Counsel for Respondent
(512) 936-1600
rachel.patton@oag.texas.gov

28

